        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Washington Savannah River
Company, LLC, Internal Audit
Function




DOE/IG-0811                           January 2009
                               Department of Energy
                                   Washington, DC 20585

                                   J a n u a r y 1 4 , 2009




FROM:


SCIBJECT:
                         *-
MEMORANDUM FOR THLSECRETAEY

                        Gregory    Friedman
                        Inspector General

                        INFORMATION: Audit Report on the "Washington Savannah
                        River Company, LLC Internal Audit Function"

BACKGROUND

The Washington Savannah River Company, LLC (WSRC), served as the management
and operating contractor for the Department of Energy's Savannah River Site (SRS) from
April 1, 1989, to July 3 1, 2008. [n accordance with the terms of its contract, WSRC
expended Federal filnds for the operation and maintenance of SRS. WSRC was required
to account for all filnds advanced by the Department and to safeguard Government assets
in its care. Also, as required by its contract, WSRC was to annually prepare a Statement
qfC'osl.~Incurred und ('laimed, which it submitted to the Department for all Federal
funds expended during the year. For Fiscal Year (FY) 2007, WSRC expended and
claimed $1,420,986,556.87.

The Office of Inspector General (01G). in coordination with the Department and its
Contractor Internal Audit Council, developed and implemented a CooperufiveAudir
Slr~~legy in October 1992 to maximize audit coverage of facility contractors, such as
WSRC. As part of that strategy and under the terms of its contract, WSRC was required
to maintain an internal audit function that was acceptable to the Department, based on
certain specific criteria. For example, WSRC was to conduct a~lditsin accordance with
professional audit standards. These audits were designed to ensure that costs charged
were allowable, allocable to the Department, and reasonable in nature. These audits, in
part, place the OIG in a position to rely on WSRC audit work in evaluating the adequacy
of contractor internal controls over unallowable costs. Given the significance of WSRC
expenditures and in response to quality concerns that surfaced during other reviews, we
initiated this effort to determine whether audits completed by the WSRC Internal Audit
Department (Internal Audit) during FY 2007 met both quality and professional auditing
standards.

RESULTS OF AUDIT

Our review disclosed that work performed by WSRC Internal Audit during FY 2007 was
not satisfactory in several material respects. Specifically. we found instances where:

       Auditors identified procurements that were not properly approved, but Internal
       Audit management permitted WSRC management to provide approvals three
       years after-the-fact. The WSRC auditors omitted the questioned costs associated
       with the procurements from the audit report;
        The WSRC lnternal Audit manager encouraged WSRC management to omit
        inforn~ationthat confirmed improper labor cost allocations, an internal control
        weakness initially identified during audit testing; and,

        After the completion of audit testing, Internal Audit management directed a staff
        auditor to modify the testing attribute related to independent receipt of procured
        goods and services an action that caused some of the questioned costs
                            -



        associated with this internal control weakness to be excluded from reporting.

Our review established that, through the inappropriate modification of audit findings,
Internal Audit failed to follow International Standards for the Professional Practice of
Internal Auditing, as promulgated by the Institute of Internal Auditors (IIA Standards).
In spite of advice and, in some instances, the documented dissent of staff internal
auditors, Internal Audit management directed inappropriate changes to valid audit results.
Similarly, WSRC officials were permitted to provide after-the-fact justifications and
approvals for violations of various internal control procedures designed to prevent or
detect unallowable costs. These actions violated professional standards related to auditor
independence and objectivity; proper perfonnance of the audit engagement; and,
appropriate communication of audit results.

These problems occurred, at least in part, due to the failure of the Savannah River
Operations Office to require WSRC to comply with the provisions of a required 2004
internal audit contract clause and the associated Department-promulgated Acquisition
Guide. This clause, part of Acquisition Letter AL-2005-04, issued on November 2, 2004,
was designed to improve the practice of internal auditing across the Department by,
among other things, strengthening reporting requirements and ensuring that Chief Audit
Executives reported functionally to an independent governing body such as a Board of
Directors, audit committee, or equivalent independent corporate governing body.
Presumably, such a reporting arrangement may have prevented Internal Audit
management from modifying results in favor of WSRC. An independent reporting
arrangement may have also provided internal auditors who were directed to modify
findings an opportunity to record and report their dissent to such an independent body
without fear of reprisal from WSRC management.

As a consequence, Federal managers at SRS were not provided with information
necessary to fully comprehend the materiality of nor address and resolve internal control
weaknesses. For example, one audit identified significant questioned costs, yet the
questioned costs which exceeded $900,000, were omitted from the final audit report. In
this and other cases, the changes were made without adequate rationale or justification.
Exacerbating these issues, even when costs were questioned, Federal officials at SRS did
not always furnish Internal Audit reports to applicable Federal Contracting Officers for
adjudication of questioned cost issues.

Based on issues identified in this report, we concluded that the work performed by
Internal Audit in FY 2007 could not be relied on. Until these deficiencies are corrected,
we are unable to assess the allowability and allocability of the over $1.4 billion in costs
incurred and claimed by WSRC. To aid in resolution, we made a number of
recommendations designed to address Internal Audit deficiencies.

MANAGEMENT REACTION

Management disagreed with certain of our conclusions. Nonetheless, it acknowledged
that there were problems with questionable practices by Internal Audit management,
including lack of independence and material \. iolations of professional standards.
Management proposed corrective actions that are responsive to our recommendations.
Management's comments and our responses are summarized in the body of our report.

Attachment

cc:   Acting Deputy Secretary
      Under Secretary of Energy
      Administrator, National Nuclear Security Administration
      Assistant Secretary for Environmental Management
      Chief of Staff
      Manager, Sab annah River Operations Office
      Team Leader, Audit Liaison Team, CF-1.2
REPORT ON WASHINGTON SAVANNAH RIVER COMPANY, LLC,
INTERNAL AUDIT FUNCTION



TABLE OF
CONTENTS


  Compliance With Professional Audit Standards

  Details of Finding                                1

  Recommendations                                   6

  Comments                                          7


  Appendix

   1. Objective, Scope, and Methodology             8
COMPLIANCE WITH PROFESSIONAL AUDIT STANDARDS

WSRC's Internal   Our review disclosed that work performed by Washington
Audit Work        Savannah River Company, LLC's, Internal Audit Department
                  (Internal Audit) during Fiscal Year (FY) 2007 did not always
                  comply with quality or professional standards established by
                  International Standards for the Professional Practice of Internal
                  Auditing as promulgated by the Institute of Internal Auditors (IIA
                  Standards). Prior to relying on work performed by Internal Audit,
                  generally accepted government auditing standards require the
                  Office of Inspector General (OIG) to evaluate such work to ensure
                  it meets quality and professional standards. As such, we conducted
                  a review of two of the five audits completed during FY 2007,
                  namely the Procurement Card Audit and the Accounting and
                  Control of Labor Costs Audit, to determine whether Internal Audit
                  had – as asserted in each of its published audit reports – complied
                  with IIA Standards. Based on that review, we identified several
                  material instances in which Internal Audit did not adhere to
                  established IIA Standards related to Independence and Objectivity,
                  Performing the Engagement, and Communicating Results.

                                    Independence and Objectivity

                  Several actions taken by Internal Audit management raise concerns
                  regarding its independence and objectivity. According to IIA
                  Standard 1100 – Independence and Objectivity, the internal audit
                  activity should be independent, and internal auditors should be
                  objective in performing their work. However, during our review of
                  Internal Audit's working papers, we noted certain communications
                  to Washington Savannah River Company, LLC (WSRC),
                  management from Internal Audit management proposing methods
                  to reduce the severity of audit findings. For example, Internal
                  Audit management notified WSRC management that Internal
                  Audit had identified a significant control deficiency in approving
                  certain procurements that had been made in FY 2004. However,
                  WSRC management could "remedy" these deficiencies by
                  approving the sampled procurements nearly three years after the
                  procurements had occurred. WSRC management complied with
                  Internal Audit management's suggestion and the questionable costs
                  associated with the control weakness were excluded from the final
                  report.

                  In another audit, we noted that Internal Audit management advised
                  WSRC management to reword its official response because it
                  could result in the Department of Energy's (Department)
                  contracting officer requesting WSRC to repay the questioned costs.
                  In conducting an audit of labor adjustments, Internal Audit




Page 1                                                          Details of Finding
         identified and questioned $919,000 of inappropriate labor
         adjustments. Internal auditors delineated each of the questioned
         costs on a spreadsheet and requested WSRC management's
         preliminary response to each of the questioned adjustments. In
         responding, WSRC management stated that based on its analysis,
         $151,000 of labor hour adjustments were inappropriate and that
         they wanted to meet with Internal Audit to further discuss their
         response. During the course of the subsequent meeting, Internal
         Audit management proposed that management omit from its
         official response any reference to WSRC management's conclusion
         that inappropriate labor hour adjustments were made. Further,
         Internal Audit management suggested that WSRC management's
         response not identify the amount of questioned costs agreed with
         or even that management had completed its review of the
         questioned labor adjustments. By including this information in its
         official response, Internal Audit management postulated that the
         contracting officer could have a basis to request WSRC to
         reimburse the Department for the inappropriate labor charges.
         Based on this evidence, we believe that the Internal Audit activity
         was not independent or objective in performing its work and that
         its actions were designed to prevent the reporting of questioned
         costs.

                             Performing the Engagement

         In evaluating the audit working papers, Internal Audit
         management's direction to resolve audit exceptions appeared
         inappropriate and minimized the extent of questioned costs
         identified. IIA Standard 2300 – Performing the Engagement,
         states that internal auditors should identify, analyze, evaluate, and
         record sufficient information to achieve the engagement's objective
         and that the audit should be properly supervised to ensure
         objectives are achieved and quality is assured. While we found
         that the auditors had conducted and documented a thorough
         analysis and evaluation of audit evidence, Internal Audit
         management's direction in dealing with the anomalies identified by
         staff auditors appeared to be inappropriate and unjustified.

         In conducting its audit of procurement cards, Internal Audit
         selected a statistical sample of 68 requisitions from a universe of
         12,455 to test whether WSRC's internal controls over procurement
         cards were in place and functioning. Among the various attributes
         tested was whether there was evidence of independent receipt of
         the procured item by someone other than the card holder. Out of
         the sample, Internal Audit identified 10 requisitions that did not
         meet the established attribute. Initially, the internal auditor



Page 2                                                   Details of Finding
         projected this error rate to the universe and noted the exceptions in
         the working papers. In conducting a supervisory review of the
         work, Internal Audit management directed the attribute be
         modified such that the internal auditor would accept any
         documentation of receipt regardless of independence. Therefore,
         the projection of questioned costs was reduced by over 50 percent
         and the significance and extent of errors related to the established
         internal control was inaccurately reported.

         Another attribute tested was whether or not procurement card
         transactions had been approved by someone other than the
         cardholder. Initial testing by the internal auditor identified 11
         transactions in which evidence of approval authority by someone
         other than the cardholder was not properly documented. The
         internal auditor projected the results of this error rate to the
         universe. After reviewing the audit working papers, Internal Audit
         management allowed WSRC management to retroactively approve
         the procurements in order to reduce the error rate of the sample
         even though the procurements had occurred three years earlier.
         The internal auditor was then directed to accept the subsequent
         approval as adequate documentation that the procurements had
         been properly approved. Ultimately, none of the projected
         questioned costs, statistically projected at approximately $991,510,
         were included in the audit report. Such action impacted the quality
         of the audit in that the report did not provide information to
         Federal management that would have given them an understanding
         of the significance of the error.

                               Communicating Results

         Internal Audit did not clearly communicate the results of work in
         its issued reports. IIA Standard 2400 – Communicating Results,
         states that final communication of engagement results should,
         where appropriate, contain the internal auditor's overall opinion
         and/or conclusions and that they should be accurate, objective,
         clear, concise, constructive, complete, and timely. However, the
         audit reports we reviewed did not completely and accurately
         disclose the audit results identified in the working papers.

         In comparing audit evidence to reported results for the
         procurement card audit, we found that the internal auditor
         identified questioned costs associated with eight audit exceptions
         in the audit working papers, but only a portion of the questioned
         costs were disclosed in the audit report. According to the audit
         working papers, the internal auditor questioned costs of
         approximately $2 million based primarily on Federal Acquisition



Page 3                                                   Details of Finding
                   Regulations (FAR) 31.201. According to FAR, costs may be
                   considered unallowable if there are significant deviations from the
                   contractor's established practices. The audit working papers noted
                   an expected error rate of 0.3 percent and a tolerable error of
                   $90,000. Because the noted projected errors of approximately
                   $2 million significantly exceeded the established tolerable error
                   rate, we believe that the error was significant enough to warrant
                   reporting the amount to Federal management. However, the final
                   report only identified $308,000 of questionable costs associated
                   with two of the eight documented audit exceptions.

                   Also, Internal Audit did not clearly communicate the results of its
                   audit work related to the labor cost audit. The audit was conducted
                   to determine whether labor costs were properly accumulated,
                   distributed and reported. After identifying 15,803 hours of
                   questionable labor adjustments, Internal Audit provided WSRC
                   management with a spreadsheet for its preliminary review and
                   comment. WSRC management responded that 2,051 hours were
                   inappropriately adjusted. In Internal Audit's subsequent report,
                   there was no mention or quantification of the extent or magnitude
                   of the inappropriateness of labor adjustments. Rather, the report
                   simply noted that certain labor hour adjustments did not appear to
                   comply with applicable Cost Accounting Standards, WSRC's
                   Disclosure Statement, Department Accounting Handbook, and/or
                   WSRC contract terms and conditions.

Independence and   Over the past two years, we have reported other weaknesses
Oversight of       related to Internal Audit. Earlier this year, we reported that the
Internal Audit     Savannah River Operations Office (Savannah River) had not
Function           required WSRC to comply with provisions of Department
                   Acquisition Letter AL-2005-04. Issued on November 2, 2004, the
                   Acquisition Letter was designed to improve the practice of internal
                   auditing across the Department. Among other things, it requires
                   the internal audit activity to establish and report to an independent
                   governing body such as a Board of Directors or audit committee in
                   an effort to ensure its independence and objectivity. In this case,
                   such an independent reporting arrangement may have prevented
                   Internal Audit management from modifying results in favor of
                   WSRC. An independent reporting arrangement may have also
                   provided internal auditors who were directed to modify findings an
                   opportunity to record and report their dissent to such an
                   independent body without fear of reprisal from WSRC
                   management.

                   The Acquisition Letter also provides assurance regarding
                   adherence to professional standards while discussing such matters



Page 4                                                             Details of Finding
                      as how WSRC will ensure that incurred contract costs are
                      allowable under the cost principles of the contract. Our report
                      recommended that the Department modify the WSRC contract to
                      require Internal Audit to comply with the provisions of the
                      Acquisition Letter. Initially, the Department concurred with the
                      recommendation and proposed a modification to the WSRC
                      contract. However, the Department did not incorporate this
                      modification into the WSRC contract until August 8, 2008.

                      Also, in 2007, we reported that the Internal Audit function had not
                      followed internal written procedures when performing and
                      documenting its internal peer reviews and supervisory review of
                      working papers. As a result, we recommended the Department
                      direct Internal Audit to comply with established policies and
                      procedures to ensure that supervisory review is thoroughly and
                      sufficiently performed and documented. The Department
                      concurred with the recommendation and indicated that corrective
                      actions had been initiated.

Involvement of        Finally, we found that Internal Audit's reports were not distributed
Contracting Officer   to the Department's Contract Management Division for oversight
                      and action. WSRC's contract requires that results of internal
                      audits, including the working papers, shall be submitted or made
                      available to the contracting officer. To ensure that questioned
                      costs were resolved appropriately, Savannah River assigns
                      responsibility for oversight of Internal Audit to both its Financial
                      Evaluation Team and the Contracts Management Division. As
                      such, Savannah River's Integrated Performance Assurance Manual
                      notes that these organizations and other Savannah River personnel
                      need to be cognizant of the costs being charged by the contractor
                      and, if the costs appear to be unreasonable or otherwise
                      questionable, the issue needs to be identified to the contracting
                      officer for resolution.

                      In spite of the Savannah River policy, however, the contracting
                      officer with cognizance over the WSRC contract told us that she
                      had not been provided with audit reports issued by Internal Audit.
                      Rather, the reports had only been provided to the Savannah River
                      Financial Evaluation Team. Based on our inquiries, the Financial
                      Evaluation Team indicated that it had not provided copies to the
                      contracting officer. Further, we noted that Savannah River had no
                      formalized process to ensure that those receiving Internal Audit's
                      reports distributed them to appropriate Federal contract
                      management personnel for action and follow-up. As a result, the
                      Savannah River Contracts Management Division had not taken
                      action to follow-up on questioned costs reported by Internal Audit.



Page 5                                                               Details of Finding
Impact on Internal   As noted in the Acquisition Guide outlining the Cooperative Audit
Controls and         Strategy, an Internal Audit organization should provide
Allowability of      independent, objective assurance and consulting activities. One of
Costs                its primary duties is to conduct independent and objective reviews,
                     in accordance with standards promulgated by the Institute of
                     Internal Auditors, to assess the allowability of costs in accordance
                     with the applicable cost principles of the contract. An
                     independent, objective, and reliable internal audit function is
                     therefore an essential part of the contractor's internal control
                     function and is critical to the overall success of the Cooperative
                     Audit Strategy. Failure to maintain an internal audit function that
                     is satisfactory to the Department significantly increases the risk
                     that unallowable costs will be incurred and not detected in a timely
                     manner.

                     Based on issues identified in this report, we concluded that the
                     work performed by Internal Audit in FY 2007 could not be relied
                     on. Unless and until the deficiencies are corrected consistent with
                     the terms of the WSRC contract, we will be unable to make an
                     assessment of the allowability and allocability of the over $1.4
                     billion in costs incurred and claimed by WSRC. To aid in
                     resolution, we made a number of recommendations designed to
                     address Internal Audit deficiencies, require determination of
                     whether costs associated with the internal audit function are
                     allowable, and whether questioned costs originally identified by
                     WSRC internal audit, but not reported, are allowable.

RECOMMENDATIONS      We recommend that the Manager, Savannah River Operations
                     Office:

                        1. Require that all contractor internal audit reports be
                           provided to the applicable Federal Contracting official for
                           resolution of all questioned costs;

                        2. Make a determination on whether questioned costs
                           identified by Internal Audit, but not reported, are allowable;

                        3. Perform a review of the WSRC Allowability of Cost Audit
                           for 2007, in accordance with generally accepted
                           government auditing standards, to ensure that the work of
                           Internal Audit can be relied on; and,

                        4. Determine whether WSRC's fee should be reduced due to
                           deficient performance by Internal Audit during FY 2007.




Page 6                                                              Recommendations
MANAGEMENT    Overall, Management disagreed with our audit conclusion that
AND AUDITOR   the work performed by Internal Audit in FY 2007 could not be
COMMENTS      relied on. This opinion was based on the results of two reviews
              conducted by parties external to Savannah River. However,
              Management acknowledged that weaknesses existed within
              Internal Audit and provided planned actions to address these
              weaknesses. Specifically, Management concurred with
              recommendation 1 and stated that Internal Audit will be required to
              include distribution of all reports to the Federal Contracting
              official. Further, in response to recommendation 2, Management
              stated that the Savannah River Chief Financial Office will obtain
              and provide to the Federal Contracting official, all information
              deemed necessary to provide full disclosure and assist in the
              determination of allowability of costs. Additionally, in response to
              recommendation 3, Management stated that the Savannah River
              Financial Evaluation Team Leader will perform a review of the
              Allowability of Cost Audit for 2007 to include a general working
              paper review and a reconciliation of the final report to the
              supporting working papers. Finally, in response to
              recommendation 4, Management stated that the Federal
              Contracting official will make a determination if a fee reduction is
              required due to deficient performance by Internal Audit during
              FY 2007.

              Despite Management's position that the work of Internal Audit
              could be relied upon, we believe that our work adequately supports
              our opinion. Further, the two external reviews cited by Savannah
              River appear to support our conclusions. For example, the review
              conducted by the Office of Environmental Management
              Consolidated Business Center determined that serious weaknesses
              exist with Internal Audit including questionable practices by the
              Internal Audit manager, lack of independence of the Internal Audit
              manager, appropriateness of audit reporting and the length of time
              it takes to complete some internal audits. A review by a Certified
              Public Accountant retained by WSRC to evaluate our results also
              concluded that certain IIA standards were not followed.

              We consider Management's planned actions related to our
              recommendations to be responsive. The review activities
              contemplated by Management in response to recommendation 3
              should be performed in accordance with generally accepted
              government auditing standards and sufficient documentation
              should be maintained to enable the Office of Inspector General to
              make an assessment of the allowability and allocability of costs
              incurred and claimed by WSRC during FY 2007.




Page 7                                                               Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether audits
              completed by the Washington Savannah River Company, LLC's,
              (WSRC) Internal Audit Department (Internal Audit) during Fiscal
              Year (FY) 2007 met both quality and professional auditing
              standards.

SCOPE         The audit was performed from March 2008 to August 2008 at the
              Savannah River Operations Office (Savannah River) and the
              offices of WSRC in Aiken, South Carolina. The scope of the audit
              was limited to a review of a representative sample of reports and
              associated working papers for audits issued by the WSRC Internal
              Audit during FY 2007.

METHODOLOGY   To accomplish the audit objective, we:

                  •    Obtained and reviewed Department of Energy guidance
                       and requirements for contractor internal audit functions,
                       including specific WSRC contract requirements;

                  •    Reviewed applicable standards for the professional
                       practice of internal auditing;

                  •    Interviewed key personnel at Savannah River; and,

                  •    Obtained and reviewed WSRC Internal Audit reports and
                       associated working papers.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit work. Specifically, we reviewed
              the work of WSRC Internal Audit for FY 2007 to determine the
              extent to which the Office of Inspector General could rely upon the
              work and thereby avoid duplicate efforts. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. Finally,
              we did not rely on computer processed data to accomplish our
              audit objective.
              An exit conference was held with Savannah River Operations
              Office management on December 11, 2008.




Page 8                                    Objective, Scope, and Methodology
                                                                    IG Report No. DOE/IG-0811

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
